HHS/OIG - Audit -"Office of Inspector General's Partnership Plan - New York State Comptroller Report on Controlling Medicaid Payments for School and Preschool Supportive Health Services,"(A-02-01-01024)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General's Partnership Plan - New York State Comptroller Report on Controlling Medicaid Payments
for School and Preschool Supportive Health Services," (A-02-01-01024)
October 5, 2001
Complete
Text of Report is available in PDF format (1.34 MB).  Copies can also be obtained by contacting the Office of
Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit addresses Medicaid payments for certain diagnostic and special education services for eligible students in
New York for the period January 1, 1997 through December 31, 1999.  The New York Office of the State Comptroller (OSC)
performed the review and it was conducted as part of our partnership efforts with State auditors to expand audit coverage
of the Medicaid program.  The OSC found that Medicaid might have inappropriately made between $33 million and $37.1
million of School and Preschool payments during the 3-year period ending December 31, 1999.  Most of the overpayments
were attributed to a control weakness that was not corrected until December 31, 1997 by the New York City Board of Education,
the agency responsible for submitting claims to the Medicaid Management Information System (MMIS).  While the New
York City Board of Education officials corrected the weakness prior to the OSC audit, they did not take steps to repay
the overpayment.  The OSC recommended that the New York State Departments of Health (Health) and Education:  (1)
establish procedures to monitor Medicaid billings for duplicate claims between the School and Preschool programs and investigate
the feasibility of implementing MMIS computer edits to prevent future payment of these claims; (2) investigate and recoup
inappropriate School and Preschool Medicaid Payments; (3) implement procedures to monitor Medicaid billings for targeted
care management claims to detect inappropriate Medicaid payments for TCM services; and (4) investigate to determine the
reason the MMIS near duplicate computer edit did not detect and prevent Medicaid payments to more than one school district
or county for the same recipient, service or rate code, and date of service.